                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-08020011                                                                       Page 1 of 1



         This investigation identified an award t made to a PI2 at a university 3 that had expenditures after
         the expiration date of the award, and after a no-cost extension had been denied.

          Our investigation, which included a review of financial records, revealed that following the
        . expiration of the award, the PI had transferred salary charges from a period prior to the award's
          expiration onto the award.

         The university returned the unallowable charges to NSF4, in addition to updating its procedures
         for handling payroll transfers.

         In light of the above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




NSF DIG Fonn 2 (tl/02)
